<html>
<title> - FINANCIAL MANAGEMENT AT THE DEPARTMENT OF HEALTH AND HUMAN SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  FINANCIAL MANAGEMENT AT THE DEPARTMENT OF HEALTH AND HUMAN SERVICES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY
                        AND FINANCIAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2004

                               __________

                           Serial No. 108-273

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-484                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
MICHAEL C. BURGESS, Texas            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
                   David Marin, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on Government Efficiency and Financial Management

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
MARSHA BLACKBURN, Tennessee          EDOLPHUS TOWNS, New York
STEVEN C. LaTOURETTE, Ohio           PAUL E. KANJORSKI, Pennsylvania
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
KATHERINE HARRIS, Florida

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Mike Hettinger, Staff Director
                 Larry Brady, Professional Staff Member
                         Nathaniel Berry, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 30, 2004...............................     1
Statement of:
    Steinhoff, Jeffrey C., Managing Director, Financial 
      Management and Assurance, Government Accountability Office; 
      Keith A. Rhodes, Chief Technologist, Center for Technology 
      and Engineering, Government Accountability Office; and 
      Kerry N. Weems, Acting Assistant Secretary for Budget, 
      Information, and Finance, Department of Health and Human 
      Services...................................................     2
Letters, statements, etc., submitted for the record by:
    Steinhoff, Jeffrey C., Managing Director, Financial 
      Management and Assurance, Government Accountability Office, 
      and Keith A. Rhodes, Chief Technologist, Center for 
      Technology and Engineering, Government Accountability 
      Office, prepared statement of..............................     6
    Weems, Kerry N., Acting Assistant Secretary for Budget, 
      Information, and Finance, Department of Health and Human 
      Services, prepared statement of............................    23

 
  FINANCIAL MANAGEMENT AT THE DEPARTMENT OF HEALTH AND HUMAN SERVICES

                              ----------                              


                      THURSDAY, SEPTEMBER 30, 2004

                  House of Representatives,
Subcommittee on Government Efficiency and Financial 
                                        Management,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Todd Russell 
Platts (chairman of the subcommittee) presiding.
    Present: Representatives Platts and Turner.
    Staff present: Mike Hettinger, staff director; Larry Brady 
and Tabetha Mueller, professional staff members; Nathaniel 
Berry, clerk; Adam Bordes, minority professional staff member; 
and Jean Gosa, minority assistant clerk.
    Mr. Platts. This hearing of the Subcommittee on Government 
Efficiency and Financial Management will come to order.
    Today's hearing continues the subcommittee's oversight of 
Federal financial management and focuses on one of the most 
important building blocks for success: financial system 
implementation.
    The clear goal of management reforms passed over the past 
two decades is timely, accurate, useful information, financial 
data that can be used to manage and make decisions. Without 
this information, the Federal Government cannot analyze costs 
and benefits or gather an accurate assessment of program 
performance. In our oversight we have seen time and time again 
the importance of financial system implementation and how 
Federal agencies must construct the proper framework to achieve 
the goal of sound management.
    As part of our oversight of these system implementations, 
we requested that the Government Accountability Office review 
the multi-year effort now underway at the Department of Health 
and Human Services to implement the Unified Financial 
Management System. The UFMS implementation is critical to the 
Government's delivery of vital services to millions of 
citizens, and we look forward to discussing both the progress 
that has been made and the concerns that have been raised 
regarding this implementation.
    We are honored here today to have Jeff Steinhoff, Managing 
Director of Financial Management and Assurance at the 
Government Accountability Office. He is joined by Keith Rhodes, 
Chief Technologist at the GAO Center for Technology and 
Engineering. We also have Kerry Weems, Acting Assistant 
Secretary for Budget, Information, and Finance at the 
Department of Health and Human Services before us today. We are 
glad to have you back as well, and have your knowledge as a 
panel shared with us again today.
    Mr. Towns is not going to be able to join us today. So we 
are going to move forward right into your opening statements. 
As a practice of the full committee and this subcommittee, if 
we can have you rise, I will swear you in and we can get 
started.
    [Witnesses sworn.]
    Mr. Platts. Thank you. The clerk will note that all 
witnesses affirmed the oath.
    We appreciate the written testimony you have provided to 
give us a chance to prepare for today's hearing. As far as your 
opening statements, if we can roughly be guided by 5 to 10 
minutes, we are not going to be real sticklers because it is 
just more of an intimate dialog here today.
    Mr. Steinhoff, if you would like to begin, then we will 
proceed to Mr. Weems.

    STATEMENTS OF JEFFREY C. STEINHOFF, MANAGING DIRECTOR, 
 FINANCIAL MANAGEMENT AND ASSURANCE, GOVERNMENT ACCOUNTABILITY 
    OFFICE; KEITH A. RHODES, CHIEF TECHNOLOGIST, CENTER FOR 
 TECHNOLOGY AND ENGINEERING, GOVERNMENT ACCOUNTABILITY OFFICE; 
  AND KERRY N. WEEMS, ACTING ASSISTANT SECRETARY FOR BUDGET, 
   INFORMATION, AND FINANCE, DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Steinhoff. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today to discuss HHS' efforts to implement 
a Unified Financial Management System. At the outset, I want to 
thank you for the leadership you and this subcommittee have 
provided over your tenure to really move financial management 
ahead. This is very important. The challenges that HHS is 
facing, as well as the other CFO agencies, in working on 
difficult systems issues really require oversight and 
understanding by the Congress. So, thank you for all of your 
efforts.
    The report we are releasing at today's hearing, which was 
prepared at your request, includes 34 recommendations that 
focus on mitigating the risks associated with this project. For 
eight of these recommendations in particular, we recommended 
that until they are substantially addressed, HHS should delay 
the October 1st planned deployment of the new system at CDC. As 
you will hear today, they have, in fact, done that.
    The core concepts and goals of financial management are 
captured well in the 1990 CFO Act. At the heart of the act are 
three provisions that require, first, the systematic 
measurement of performance; second, the development of cost 
information; and third, the integration of systems, program 
budget, and financial. Good financial management is having 
reliable, useful, and timely information needed for day to day 
decisionmaking and management. This requires first rate 
financial management systems that go far beyond core accounting 
and financial statement preparation. The systems must address 
the broader concepts imbedded in the CFO Act and addressed in 
the President's Management Agenda which is moving us toward a 
business-centric Government.
    We support HHS' decision to replace its five outdated 
accounting systems. We are not questioning whether a new system 
is needed or HHS' commitment to making this happen. Our work 
focused on whether the project was being managed in a way that 
best ensures long-term success. This is a major project. All 
projects are difficult; a major project, you multiply that 
several-fold. Full implementation is targeted for 2007, so 
there is a lot of time to address issues, and the estimated 
cost of this project is around $700 million. Not only must the 
system ultimately replace five accounting systems, but it must 
also interface with about 110 other systems.
    When all is said and done, how does one define success? In 
2007, in addition to basic accounting and financial reporting, 
we think of it in terms of three results. First, a system that 
routinely provides the day to day management information 
envisioned by the CFO Act and the President's Management 
Agenda; second, a system that operates efficiently, meaning, it 
does not require a whole lot of manual processing to make up 
for shortfalls in design or implementation; and third, a system 
that does not require expensive rework. All systems require 
some. The real goal is to control any rework.
    By any measure, the implementation of a new information 
system, whether in Government or the private sector, this is 
not a government-centric issue, is difficult and brings with it 
a degree of risk. As I said before, for a major project the 
risk is much greater. While risk cannot be avoided, it can be 
managed and reduced to acceptable levels through the use of 
disciplined processes, which, in short, represent best 
practices that have proven their value in the past.
    Our experience is that serious implementation problems are 
generally the result of not effectively implementing 
disciplined processes. It is easy to forego, shortcut, or delay 
key steps, especially when your project is date-driven; you 
have pressures to meet schedule, to meet budget. We have seen 
this in our work at other agencies and it has had serious 
repercussions for them.
    At HHS we found that some best practices were adopted. For 
example, the project had strong support of senior officials, as 
well as verification and validation oversight by independent 
experts, commonly called IV&V. We also view HHS' decision to 
follow a phased implementation to be a sound approach.
    At the same time, at the time of our review, the project 
demonstrated some of the classic symptoms of schedule-driven 
efforts for which disciplined processes, such as requirements 
management, and testing had not yet been effectively 
implemented. In addition, compounding the project-specific 
risks were department-wide weaknesses in information technology 
management, enterprise architecture, and information security. 
Finally, staff shortages and limited strategic work force 
planning resulted in the project not always having the needed 
resources.
    For these reasons, we concluded that HHS had not yet 
reduced its risk to an acceptable level. Among our 34 
recommendations, as I mentioned at the outset, we called for 
HHS to delay deployment at CDC until certain actions had been 
completed to reduce the risk to an acceptable level. Last week, 
HHS advised us that it had decided to defer full deployment of 
the system at CDC for 6 months. This additional time provides 
HHS the opportunity to address our concerns as well as similar 
concerns raised by its IV&V contractor.
    Keith Rhodes will now highlight what we think are some of 
the things that need to be done, and done now, to take full 
advantage of this 6 month period. He will focus on four key 
areas.
    Mr. Rhodes. Thank you, Mr. Chairman. HHS will face a number 
of challenges in the upcoming 6 months. The key challenge 
being, as Mr. Steinhoff stated, to move from a schedule-driven 
project to an event-driven project. This will be critical to 
address problems that both we in GAO and the IV&V contractor 
have identified. I will focus my comments on four areas: First, 
requirements management; second, testing; third, quantitative 
measures; and fourth, data conversion and interfaces.
    We view requirement managements and testing as two of the 
pillars of successful efforts, while quantitative measures are 
critical to understand the risks that are being undertaken and 
whether the project is ready for deployment. Finally, good data 
conversion and interfaces are critical to being able to provide 
the kind of management information that will be needed to meet 
the goals of the CFO Act and the President's Management Agenda.
    Regarding requirements, requirements must one, describe the 
functionality needed to meet user needs; two, be defined in a 
way that is clear and unambiguous; and three, support an 
effective testing process, meaning that compliance with the 
requirement can be validated through quantitative means. Once 
you have the good requirements, HHS will be in a position to 
conduct effective testing activities.
    The foundation of an effective testing program is a 
documented testing plan that describes how testing will be 
carried out and controlled. For example, HHS will need to 
implement effective functional testing and user acceptance 
testing which will enable HHS to know what the system can and 
cannot do, and whether the system meets the users' needs, 
including being user friendly. In the private sector, you are 
doing the user acceptance testing to figure out what the take-
up of the system is going to be.
    Quantitative measures. HHS will need to use quantitative 
measures to evaluate the success of the events that are used to 
measure project progress in order to help ensure that it is 
adopting event-driven processes. Without reliable and rigorous 
quantitative measures, it is impossible to see where you are on 
the playing field. Intuitively, you might think that you are 
moving ahead and making progress. But how far and in what 
direction is the bigger question.
    Finally, HHS' ability to convert data from its legacy 
systems to the new system will be critical to the success of 
the project, as will the ability to interface the system with, 
as Mr. Steinhoff stated, 110 other information systems that 
support key functionality, such as grant accounting. For 
example, HHS expects that UFMS will need to support about 30 
system interfaces for the CDC deployment alone.
    This does not mean that by successfully addressing these 
four areas alone HHS will have reduced its risks to acceptable 
levels. Rather, relatively speaking, we view these areas as 
being critical and needing to be fully addressed between now 
and the planned April 2005 full deployment.
    In closing, if the past is prologue, taking the time to 
effectively implement the disciplined processes discussed in 
our report and called for by HHS' IV&V contractor will pay 
long-term dividends, and to do otherwise has proven to be 
counter-productive and costly in the long term.
    Mr. Chairman, this concludes our summary comments. We would 
be pleased to respond to any questions that you may have.
    [The prepared statement of Mr. Steinhoff and Mr. Rhodes 
follows:]

[GRAPHIC] [TIFF OMITTED] T8484.001

[GRAPHIC] [TIFF OMITTED] T8484.002

[GRAPHIC] [TIFF OMITTED] T8484.003

[GRAPHIC] [TIFF OMITTED] T8484.004

[GRAPHIC] [TIFF OMITTED] T8484.005

[GRAPHIC] [TIFF OMITTED] T8484.006

[GRAPHIC] [TIFF OMITTED] T8484.007

[GRAPHIC] [TIFF OMITTED] T8484.008

[GRAPHIC] [TIFF OMITTED] T8484.009

[GRAPHIC] [TIFF OMITTED] T8484.010

[GRAPHIC] [TIFF OMITTED] T8484.011

[GRAPHIC] [TIFF OMITTED] T8484.012

    Mr. Platts. Thank you, Mr. Steinhoff and Mr. Rhodes.
    Mr. Weems.
    Mr. Weems. Mr. Chairman, thank you for the opportunity to 
appear before you today. It is probably rare that somebody 
sincerely thanks the subcommittee when asked to appear in 
response to a GAO report. However, I believe we have a strong 
story to tell, so my thanks are sincere. I am here to discuss 
the HHS Unified Financial Management System. When completed in 
2007, we believe it will be the largest integrated financial 
management system in the world.
    In 2001, HHS was engaged in replanning and budgeting for 
our five major financial management systems. Secretary 
Thompson, believing that current technologies would allow for 
consolidation of the five systems into a single system, 
producing lower cost and better financial outcomes, challenged 
us to plan, procure, and implement a single system. I direct 
the committee's attention to my first chart, which is a 
reproduction of the Secretary's memorandum directing us to 
begin that endeavor.
    Looking just briefly at the goals that this memorandum 
looked for, it looked for consolidation, it looked for better 
management reporting, and lower administrative cost. This was 
very early in the Secretary's tenure, as you can see from the 
date, and this is how long this charge has been with us.
    To illustrate what the Secretary gave us in this charge, 
this next chart illustrates how we moved from our former 
decentralized environment to a new business intelligent shared 
services environment. Currently, Mr. Chairman, we struggle 
every year to be able to get a clean opinion because of the 
nature of our financial systems. We looked for a financial 
system to provide that information in an integrated way and to 
make that essentially a slam-dunk every year.
    We look forward to going to a shared services environment 
where a single service center can, for instance, pay bills for 
the entirety of the agency rather than having separate service 
centers. That is the vision. And also, to be able to provide us 
reliable, business intelligent information about the direction 
of program activity and about the direction of HHS overall.
    The scope of the undertaking is breath-taking. HHS has the 
largest budget of any cabinet agency, projected to be nearly 
$580 billion in the fiscal year that starts tomorrow. Within 
that budget is an extremely complex array of spending 
arrangements, including mandatory spending, discretionary 
spending, loan programs, the Government's largest grant 
portfolio, single and multiple year appropriations, buildings 
and facilities account, Medicare payments, user fees, revolving 
funds. The list goes on. The task of implementing a single 
system to manage those various business arrangements and to 
provide HHS leadership with meaningful financial information 
for decisionmaking is a monumental task.
    I am happy to report to this subcommittee that HHS has 
achieved a number of successes and stands on the cusp of 
achieving more. In doing so, I would like to acknowledge the 
Government Accountability Office and their efforts to better 
help us manage this undertaking. Before I review those 
successes with the committee, I would like to discuss the draft 
GAO report.
    The thrust of the GAO report was that certain management 
practices increased the risk of the UFMS project, and the 
report contained a number of recommendations to mitigate the 
risks. HHS has accepted and implemented a number of those 
recommendations. From our perspective, the GAO comments can be 
distilled into five main areas of concern: Requirements 
management and traceability; testing and data conversion; 
concept of operations; information technology infrastructure; 
and project management. I would like to discuss each one of 
these in turn.
    HHS chose an off-the-shelf software package, Oracle Federal 
Financials. The effect of making such a choice is to say HHS 
will mold its business practices to the software. That is very 
different than a ground-up software development effort where 
all requirements are identified at the finest level of detail 
and the new software is coded to meet the demands of the 
business practices. For HHS, the choice of molding our business 
practices to the software means that we can have uniformity of 
business practice, exactly what the Secretary envisioned in 
standardizing our business practices across the 12 operating 
divisions in HHS.
    The managerial benefits of standardization are immense. A 
bill to be paid can be booked and paid exactly the same way in 
FDA as it is in CDC, or, indeed, a payment for all agencies can 
be made from a single center. Since many of the requirements 
are contained in the software, requirements can be managed at a 
higher level of granularity.
    HHS has a central repository of over 2,100 requirements for 
UFMS, which includes the requirements specified by the Joint 
Financial Management Improvement Program. Those requirements 
not met by the software underwent a business change process to 
conform business practices to Oracle Federal Financials, or, in 
a few limited instances, an extension was written for the 
software. HHS has also built a requirements traceability 
verification matrix to verify that all requirements are met by 
the system and to demonstrate to HHS and outside parties that 
we have satisfied the system requirements.
    At the time of GAO's review, full test plan and test 
scripts were not available for review. So, understandably, GAO 
raised concern. Since that time, a full test plan has been 
developed and implemented. Testing is appropriate to Oracle 
Federal Financial's mature product. Therefore, our testing is 
unit testing, integration testing, and user acceptance testing. 
These tests focus on items such as interfaces developed 
specifically from, as I say, user and feeder systems. Testing 
continues to this day.
    As GAO notes, data conversion is a difficult task. HHS 
originally planned two mock conversions, essentially dress 
rehearsals for final data conversion. We now intend to conduct 
four. This demonstrates that our project management was 
flexible enough to accommodate difficulties outside of the plan 
but still stay on course.
    The GAO report urges HHS to adopt a concept of operations; 
that is, what operations must be performed, who must perform 
them, and where and how they must be performed. Our own 
independent verification and validation contractor, Titan 
Corp., has also urged us to do so.
    In July 2002, HHS developed and adopted a target business 
model, a description of business operations and how a design of 
those operations will be performed at HHS. We believe that this 
business model provides a suitable concept of operations while 
maintaining flexibility required by our rapidly changing 
business environment, including changes to travel, acquisition, 
grants management, financial management, and information 
technology. Let me give you an example. The idealized concept 
of operations would say how bills get paid in HHS and who will 
do it. Our business model has the ``how'' but not the ``who.''
    The implementation of the unified financial management 
system will foster a significant organizational transformation 
for HHS, a department that has traditionally followed a 
decentralized approach to financial management. Although this 
initiative relies on technology at its core, it is a business 
transformation initiative, emphasizing the importance of 
standardization across our business units.
    For a number of business functions, we have asked our 
operating divisions to prepare business plans and bid to be a 
service provider. This produces internal competition for 
business and produces a better result than a pre-determined 
``who.'' So our divisions are essentially competing to be one 
of the providers of the services.
    Finally, we have a governance structure, which we 
illustrate here, that allows us the flexibility to adopt our 
concept of operations to changing business needs. GAO also 
noted our governance structure as a best practice, the 
department from top to bottom is heavily invested in this 
program, from the users of business systems to our leadership. 
Changes are run through this model. Also, this model and this 
structure is used to implement other business changes in HHS, 
for instance, the recent changes that we have made to e-travel. 
Because UFMS is the central architecture to these things, we 
use this structure as a means of decisionmaking for those 
items. Users, managers, and leaders all share a voice.
    GAO noted several deficiencies in HHS information 
technology infrastructure, especially security. I am happy to 
report that HHS has greatly increased security for its systems. 
Right now, of the 175 systems, 96 percent have completed a risk 
assessment, 95 percent have security plans, and 93 percent have 
been certified and accredited for security. Eighteen of the 
nineteen systems that interface with UFMS have been certified 
and accredited.
    As the accrediting official for UFMS, I expect to accredit 
UFMS in the next several days. UFMS will run on a new secure 
network recently implemented in HHS, called HHS-net, which is 
slated for certification and accreditation in October 2004, 
making 19 of 19 systems. In fact, UFMS will be the first 
enterprise-wide system deployed over HHS-net.
    In the area of program management, we found a number of 
areas where we agree with GAO. We agree we were prematurely 
closing identified risks. And we have modified our risk 
management accordingly. We agree that the management of human 
capital has been and continues to be a significant risk. And we 
agree that our project status monitoring could be strengthened 
further.
    Where we do not agree is in the overall management 
strategy. GAO believes that the project should be event-driven 
and the project should be governed by the achievement of 
objectively measured milestones. In a perfect world I would 
agree with GAO. However, we are a schedule-driven project, even 
though that means increasing risk.
    The legend about Federal employees and Federal executives 
is that they are not risk-takers and they seek the path of 
least risk and least resistance. In HHS we are undergoing a 
tremendous metamorphosis in the way that we do business. Our 
employees want to be very much a part of that, and my job as a 
manager is to harness that enthusiasm and to translate it into 
real outcomes for HHS. I believe we have succeeded. Through 
outreach, demonstration, and training, there have been nearly 
6,000 experiences for HHS employees with UFMS. Awareness and 
expectation exceed even those levels.
    So, what are the consequences of being schedule-driven? In 
February of this year a sober, objective, hard review of where 
we stood on CDC implementation revealed that perfect execution 
would be required to meet full implementation in October. 
Understanding the consequences of that, our team was excited 
because they believed perfection to be within their reach.
    By May, our assessment was that a heroic effort would be 
required, but we pressed on. For members of the team it meant 
workdays that extended to 12 or 14 hours, workweeks that 
extended into 6 days or more, and limited or no leave during 
this period. The amount of personal sacrifice on the part of 
our employees was tremendous. The amount of sacrifice on the 
part of our contractor, the systems integrator, BearingPoint, 
was tremendous also. And I am grateful for all of their 
sacrifices.
    On August 20, I received an alert from our independent 
verification and validation contractor asking me, among other 
things, to obtain a briefing from the project team on systems 
readiness. I met with the project team here and in Atlanta and 
conducted a systems readiness review. At the conclusion of 
those reviews, and using objective, quantifiable measures of 
readiness and completion, we decided to deploy UFMS in October 
for CDC and FDA. The deployments would include general ledger 
and payroll for both, and grants for CDC later that quarter. 
Other functionality for CDC is phased to April to match that of 
FDA, and we have completed a project plan accounting for that 
phasing.
    In conclusion, I believe that UFMS continues to succeed. We 
were able to capture the enthusiasm and know-how of a 
remarkable group of Federal employees and contractors to 
complete two implementations of UFMS. We are proud of the 
milestones that we have achieved. The implementation at NIH 
will have functioned for a year. This year's financial reports 
for NIH will come from that implementation.
    The October deployment of general ledger, payroll, and 
grants remains a tremendous accomplishment. The overall 
schedule for UFMS remains the same. We still plan to have full 
implementation across HHS by the end of 2007, a date that seems 
less distant all the time. The work that has been accomplished 
is valuable and has been preserved by the phased implementation 
strategy. Participants can look back with pride on their 
accomplishments and forward to even more successes in the 
future.
    Finally, Mr. Chairman, in the days when Federal managers 
are being urged to take risks and Federal employees are 
criticized as being risk-averse, we took a calculated risk by 
being schedule-driven. We believe it to have been a necessary 
risk and one in the best interest of the project. I want to 
publicly thank the members of the UFMS team across the 
department for their dedication and diligence. I would also 
like to thank GAO for their comments, and this committee for 
your oversight and for having this hearing today. Thank you.
    [The prepared statement of Mr. Weems follows:]

    [GRAPHIC] [TIFF OMITTED] T8484.013
    
    [GRAPHIC] [TIFF OMITTED] T8484.014
    
    [GRAPHIC] [TIFF OMITTED] T8484.015
    
    [GRAPHIC] [TIFF OMITTED] T8484.016
    
    [GRAPHIC] [TIFF OMITTED] T8484.017
    
    [GRAPHIC] [TIFF OMITTED] T8484.018
    
    [GRAPHIC] [TIFF OMITTED] T8484.019
    
    [GRAPHIC] [TIFF OMITTED] T8484.020
    
    [GRAPHIC] [TIFF OMITTED] T8484.021
    
    [GRAPHIC] [TIFF OMITTED] T8484.022
    
    [GRAPHIC] [TIFF OMITTED] T8484.023
    
    [GRAPHIC] [TIFF OMITTED] T8484.024
    
    [GRAPHIC] [TIFF OMITTED] T8484.025
    
    [GRAPHIC] [TIFF OMITTED] T8484.026
    
    [GRAPHIC] [TIFF OMITTED] T8484.027
    
    [GRAPHIC] [TIFF OMITTED] T8484.028
    
    [GRAPHIC] [TIFF OMITTED] T8484.029
    
    [GRAPHIC] [TIFF OMITTED] T8484.030
    
    [GRAPHIC] [TIFF OMITTED] T8484.031
    
    [GRAPHIC] [TIFF OMITTED] T8484.032
    
    [GRAPHIC] [TIFF OMITTED] T8484.033
    
    [GRAPHIC] [TIFF OMITTED] T8484.034
    
    [GRAPHIC] [TIFF OMITTED] T8484.035
    
    [GRAPHIC] [TIFF OMITTED] T8484.036
    
    [GRAPHIC] [TIFF OMITTED] T8484.037
    
    [GRAPHIC] [TIFF OMITTED] T8484.038
    
    [GRAPHIC] [TIFF OMITTED] T8484.039
    
    [GRAPHIC] [TIFF OMITTED] T8484.040
    
    [GRAPHIC] [TIFF OMITTED] T8484.041
    
    [GRAPHIC] [TIFF OMITTED] T8484.042
    
    [GRAPHIC] [TIFF OMITTED] T8484.043
    
    [GRAPHIC] [TIFF OMITTED] T8484.044
    
    [GRAPHIC] [TIFF OMITTED] T8484.045
    
    [GRAPHIC] [TIFF OMITTED] T8484.046
    
    [GRAPHIC] [TIFF OMITTED] T8484.047
    
    [GRAPHIC] [TIFF OMITTED] T8484.048
    
    [GRAPHIC] [TIFF OMITTED] T8484.049
    
    [GRAPHIC] [TIFF OMITTED] T8484.050
    
    [GRAPHIC] [TIFF OMITTED] T8484.051
    
    [GRAPHIC] [TIFF OMITTED] T8484.052
    
    [GRAPHIC] [TIFF OMITTED] T8484.053
    
    Mr. Platts. Thank you, Mr. Weems. Again, my thanks to all 
three of you for your testimony here today and your written 
testimony.
    Let me start, Mr. Weems, maybe where you left off in 
talking about risk-taking and the decision and approach you are 
taking being schedule-driven. In your testimony I think or your 
response to GAO, you suggest that the title of their report 
should have been better titled, ``Aggressive Schedule Increases 
Risk of Implementation of HHS' Financial Management System.'' 
In making a decision for risk-taking, there is a cost-benefit 
analysis.
    What is the substantive benefit to be achieved? I assume it 
is getting the system in place quicker. But what was the cost-
benefit that was done in taking what you acknowledge to be 
greater risk to be schedule-driven as opposed to event-driven?
    Mr. Weems. Thank you for the question, Mr. Chairman. In 
making that calculation, I think we looked at several things. 
First, we had a coalition of the willing who were ready to sit 
down and work enthusiastically on a project whose concept had 
already been proven at NIH. We had a group of people who were 
willing to work very hard in making this implementation happen. 
Our contractor, BearingPoint, uses a schedule-driven model as 
their best practice in implementing these systems.
    Now, I would not say that we are exclusively schedule-
driven, Mr. Chairman, and Mr. Steinhoff and I had the 
opportunity to discuss this beforehand. If we were purely 
schedule-driven, we would have not considered the empirical 
data we were getting from testing. We would have gone ahead 
with an October implementation. Instead, we were able to 
accomplish a tremendous amount of work. All of that work is 
still preserved.
    Much of the system that will be implemented in April, that 
work is done. We are in the testing phase. I would say we 
simply ran out of runway to be able to achieve what we were 
going to achieve. We had a good test plan. We simply were not 
able to complete testing on time. Given that, we decided to 
pull back certain pieces of our implementation and implement 
what we were rock hard solid on.
    So I would say the calculation that we made was to leverage 
the enthusiasm and know-how that our employees were willing to 
put to it. And frankly, Mr. Chairman, after 23 years in the 
Federal Government, I have seen projects that are not schedule-
driven stretch out and become careers for people.
    Mr. Platts. Let me follow that up. I certainly believe the 
accuracy of your statement--of the team you have and being 
committed to your efforts, and I am also grateful for their 
efforts and believe you and all involved in moving this 
daunting task forward should be commended, and I certainly 
share that. In your testimony, though, when you were making the 
decision up front, you talk about the team and the confidence 
and the enthusiasm, but in your testimony you said, ``Three 
years ago most HHS employees impacted by this business 
transformation had little confidence in the system. Today, many 
employees have already learned how to use it.''
    It does not seem like there was that level of confidence 
when you were making that risk assessment and decision up 
front. It seems like there was not yet a buy-in other than at 
the senior management level. Can you expand on that?
    Mr. Weems. Sure. And that is a very good question. I think 
that at the initial inception of almost any change people are 
very skeptical. The Secretary himself is a leader of boundless 
enthusiasm and that enthusiasm is highly infectious. I think 
what we did--and if I could have that chart--one of the things 
that we have done on this project is to make sure that we went 
out and we touched people with this.
    We had rapid early adoption where and when it was time to 
start selling this project, my predecessor and then, later, I 
went out on the road, met with every operating division head, 
met with each one of the agency CFOs and CIOs and said this is 
the direction that we are taking. I think that we were able to 
make a case that as they looked at their financial systems, 
which I think they would readily admit are held together with 
duct tape and baling wire, that they said this is the way to go 
and get me there now.
    Mr. Platts. The other aspect of my question on the risk 
assessment or cost-benefit analysis is, again, not what 
resources or strengths you had going in, but why take higher 
risk? What will we see in the end be the benefit of greater 
risk, assuming we can avoid those risks?
    Mr. Weems. Well, the benefits of the project, first of all. 
And I think those benefits have been clear from the outset. 
Right now, we pay bills all over HHS. We do not need that 
redundancy. We need to get to those benefits as quickly as we 
can. And it is not paying bills or booking accounts receivable. 
Those are things that I have functional responsibility for.
    The thing that I have direct responsibility for, providing 
the Secretary, Members of Congress, and others information 
about the financial condition of HHS, I find that to be a very 
frustrating experience right now where we are. I want to get to 
the end. I want to be able to inform this committee, the 
President, the Secretary about some simple things about our 
programs and others more complex about the condition of finance 
in HHS.
    Mr. Platts. Was there, I know some of this is really in 
relation to your predecessor, and I am asking you----
    Mr. Weems. I am still responsible, sir.
    Mr. Platts. I am asking you to draw from your predecessor. 
But I agree, the sooner we can achieve your ultimate goal, the 
better for everybody, and most importantly for you and all at 
the department making day-to-day decisions, and that serves 
then all of our citizens that your department works with.
    Was there a calculated decision that if we take this 
approach to implementing the system, which is not what we are 
really focused on but how we are ensuring the implementation 
goes well, was there a decision in taking a schedule-driven 
approach we have higher risk than if we take an event-driven 
approach, but we can do it in 2007 instead of 2009? There must 
have been a timeframe, that if we take a more cautious, less 
risky way, it is going to take longer. That is my assumption.
    Mr. Weems. I do not have a lot of insight into where that 
process would have driven us. I am afraid that is one thing 
that I do have to say that I probably do not know precisely how 
the decisionmaking was done. But I would say, and, again, 
something for which I stand responsible, those alternatives 
have been presented to me as I have managed this project.
    In February, when we knew that it would require perfect 
execution, I asked what the alternatives were. Those were 
clear--we would have to delay certain things, it would stretch 
out the time when HHS would be fully JFMIP-compliant. I took a 
decision that I did not want to do that, that I wanted to stick 
with schedule. The same thing in May. When we got to August, we 
had pushed the project I think as far as we could. We had gone 
through testing and the empirical metrics at that time said 
there are some things we can do and some things we cannot.
    So we are going to do those things that we can do. Those 
things that we cannot, we have completed substantial work on. 
That is done. I think if we had pulled the project back, we 
would be in the same place we are today except for those things 
being done. We could do general ledger and payroll for CDC 
except we would not have all of the other functionality that we 
have virtually ready to go in the test phase right now. We 
would be working that through until April. So I would say we 
are much farther ahead of the game.
    Mr. Platts. I want to followup on that a little bit. But I 
want to give Mr. Steinhoff a chance to comment on the decision. 
In your experience with various agencies, the additional risk, 
that HHS acknowledges in taking this approach, is your 
experience that taking a less risky event-driven decision would 
have added a great amount of time into the expected completion?
    Mr. Steinhoff. No. Basically, what we find are things 
fairly similar to what we saw at HHS--the folks are very 
committed to the project, they work very hard. There is no 
question about that. What we find is that there is such a 
desire to go on line with a new system that people do. And what 
typically occurs, they have problems in developing all of their 
requirements and they have testing problems.
    And that is what happened basically at Interior a few years 
ago, that happened at NASA. They did not have metrics, they did 
not have ways to really look at their performance in specific 
terms. They had not defined every requirement.
    HHS has I think something like 2,100 requirements. Many, 
probably most, are defined. Some are not. You have to define 
well what environment the system is going to be in, 
configuration management, integration. You have to test to try 
to find defects, and have very clear measures as to how many 
defects are acceptable. What we typically find when someone is 
date-driven, and oftentimes the beginning of the fiscal year is 
that magical date so the agency can have a complete fiscal 
year, they make that choice to roll out the system to meet the 
date.
    And, typically, the problem falls into two areas; and that 
is, properly defining all the requirements and testing. A COTS 
package will do a lot for you, but there are other things one 
would need. One needs to know how the system is going to be 
applied in their environment, how it is going to be 
implemented, how is it going to be used by the user, what is 
the expected performance.
    This is a huge endeavor. Mr. Weems stated it was one of the 
biggest ever. You are talking about three-quarters of a billion 
dollars based on the present estimate. Basically, in our view, 
event-driven is really the way one should go. That does not 
mean you do not have a schedule, that you do not try to hold 
people's feet to the fire, but you assure you do not consider a 
step completed until that event has been proven to be 
successful, that you have determined that you have 
satisfactorily defined all of your key requirements, you have 
determined that you understand how the system is going to work, 
and that, whatever the environment the system is in, you have 
determined how interfaces with other systems will work. And to 
us, that is the way to approach these projects, especially one 
of this magnitude.
    If you look at the views that we have, they are very 
similar to the IV&V. They have questioned requirements. 
Certainly along the way the IV&V has found requirements are 
better defined, but they have questioned the specificity of 
many requirements, whether they are ambiguous or not. It is 
hard to test against that. The IV&V had a fairly extensive 
critique of the testing, not just that the system was not quite 
ready to pass the test, but it raised concerns with planning 
for the test, how the test was conducted; it was really soup to 
nuts. They talked about the deterioration of some of the 
documentation in the latter stages before October 1st. That 
typically happens when people are under tremendous pressure to 
push something out by a given date. Short-cuts occur and you 
end up having problems.
    What is difficult to say at this time, Mr. Chairman, is 
ultimately what will happen. No one has a crystal ball. And 
there are folks, I will acknowledge, that maybe do not follow a 
disciplined process and things work out for them. Others might 
follow disciplined processes but some things go awry later on.
    But our belief is, and a very strong belief, that you 
should always be safe on these projects and that disciplined 
processes have been proven to be the way to go, and event-
driven is what people really have found gives you the best 
chance for success.
    We have a chart on page 15 of our report, a figure that 
shows what typically happens when all the key disciplines are 
not followed, or not followed substantially. You have a lot of 
visible progress in the beginning--again, you cannot always 
tell what your progress is because you have not really had the 
metrics in place to measure it well. Where you run into the 
problem is when you get to the end. And the real proof of the 
pudding for HHS will come sometime in 2007.
    The goal that we have is really to provide our best 
thinking at this stage in looking at this project, given the 
fact that HHS has more time before project completion, and say 
here is what we think you should be doing now and here is what 
you should do to go to that next step. So, we feel strongly 
that event-driven is the way to go. But, again, only time will 
tell how this will turn out.
    Mr. Platts. Let me expand on that approach. Mr. Weems, in 
talking about your decision to delay the October implementation 
plan, you said that in February there were kind of some early 
warning signs I guess.
    Mr. Weems. Yes.
    Mr. Platts. And your team said you would have to be 
perfect, but you think you can be perfect and go forward. Then 
in May, it is going to take a heroic effort, but we are going 
to make that heroic effort to get it done. In August, IV&V 
comes back with I guess some more concerns about the ability to 
really do what you are planning. And then here in late 
September you make a final decision to not go forward.
    I guess two aspects. One is, what is the likelihood you 
would have gone forward and tried to fix the process as you 
went forward if the GAO report was not coming out which added 
some pressure or scrutiny? And I would appreciate a frank 
dialog on that. And second, if you had back in February 20/20 
hindsight, I openly acknowledge that, would the delay--right 
now you are looking at a 6-month delay is my understanding.
    Mr. Weems. Yes.
    Mr. Platts. So talking next April I guess, maybe May.
    Mr. Weems. April.
    Mr. Platts. Would it be April or May to be where you think 
you can go forward if you had not been driven by the October 
date, the schedule being October? I think I am paraphrasing 
this well, that if it was event-driven, you would say we are 
not worried about October, worry about just dealing with what 
we need to do right, and so we would have made changes back in 
February. Do you think you would have been delayed until April 
if that had been the case?
    Mr. Weems. Sure. But let me take your first question first, 
and that is the events leading up to the decision that we took. 
I got the alert from the IV&V contractor. I get reports from 
them every 2 weeks, but from time to time they will issue a 
special alert, and that is what this was. It was outside of the 
normal process. It is something that says, Mr. Weems, you need 
to go pay attention to this now.
    Obviously, I knew that our friends at GAO were looking at 
us. Though their engagement with us had ended at that point, I 
certainly was cognizant of their presence. But I would say that 
alert itself had some very discreet recommendations in it. We 
had just finished our readiness review, so there were some 
objective measures.
    I sat with the team leaders down there, spent a good part 
of the day with them going through at a very granular level 
where are we, where are we, where are we. And as they looked at 
the empirics coming out of testing, as they looked at the 
amount of testing being done, there were a couple of things for 
which they could not offer me assurance. And I would say that 
in my mind those were the things that made up my mind.
    I was not offered complete assurance of funds control by 
the time that we would turn the system on. That as somebody 
with delegated responsibility of CFO, I knew at that point we 
could not do it until I had that assurance.
    The second piece was there was some question as to whether 
or not we would be able to pay bills timely. Causing 
consternation among our community to which we pay bills is not 
something that I was looking forward to. We had already, I 
would say, engaged that community to start telling them that 
there would be a 2-week delay in bill paying as we switched the 
system. Well, I was not going to let 2 weeks stretch into 3 
weeks, stretch into 4 weeks.
    And so I would say at that time I stepped back and I said, 
OK, we cannot go forward with full functionality. What can we 
do? And the team quickly came up with those things that had 
been rock hard in implementation and testing, general ledger, 
payroll, and we could get to grants. So those are the things 
that we decided to implement. So we went forward with an 
implementation, but those things that were not rock solid we 
pulled back.
    To answer to your second question, sir, in talking to my 
team in February and in May about, OK, if we have to do 
something here, what would we do, a good deal of the advice 
that I was getting would say that we would have delayed for a 
year from October rather than to April. So I think taking the 
steps that we took, we got a lot of work done between February 
and September. The step that we took at the end of August and 
beginning of September now allows us to reflect on that work, 
to subject that work to testing, to implement it in April.
    Mr. Platts. OK. Clearly, the empirical data associated with 
the testing played a big role in your decision.
    Mr. Weems. Yes.
    Mr. Platts. That would seem to make a strong case for what 
GAO argues of the importance of having more clearly defined 
standards, the requirements management up front, a tighter 
approach up front than a more flexible plan. It seems like you 
have had an example of that now. Is that going to cause you, 
along with the report in total, to look at maybe the need to 
revise some of your requirements now before you keep going 
forward?
    Mr. Weems. Well, I think we are going to try and do both at 
the same time. We have accepted a number of the recommendations 
from GAO, and certainly we are grateful for their help in that 
regard. So with those revisions, I do think we are positioned 
to continue the project, continue pace and tempo, and to 
continue to measure how we are doing with objective measures, 
but to keep that April date in front of us, too.
    Mr. Platts. Maybe a followup that kind of relates to how 
defined your standards are up front, your requirements up 
front. As I read the testimony in preparing for today, a big 
part between HHS and GAO is the different mindset with using a 
commercial off-the-shelf product. And your contention is that 
because you are using that COTS, you necessarily cannot be as 
defined as if it was a customized plan or product. GAO, your 
history with other departments and things, yours is that even 
with using a COTS system, there still needs to be more 
specifics than HHS is approaching.
    Mr. Steinhoff. Yes.
    Mr. Platts. Mr. Steinhoff, if you want to expand on that, 
and I guess, specifically, you mentioned Interior. In your 
review of other departments and agencies that have undergone 
these efforts, I guess one thing is maybe address the 
difference in your belief that it should be more defined even 
though it is a COTS; and then second, is there a history of 
other agencies that have used a COTS product and thus thought 
they had to be less specific, but then in the end they had 
problems and we get into the rework and the cost of that?
    Mr. Steinhoff. Yes. Let me kind of talk a little bit about 
the philosophy behind COTS, and to say at first that I serve on 
the JFMIP steering committee. I had chaired the committee for 
several years and I am now a member, been on it for many years.
    What this process is about, this certification process, is 
the Government was buying commercial packages, working with 
vendors, doing a lot of customization. And the Government 
stepped back and said let us lay out what our requirements are, 
our core requirements. There may be A to Z specific 
requirements, and for an entity such as HHS there may well be 
many others. There are also mandatory requirements and value-
added requirements, more value-added are becoming mandatory as 
time goes on.
    But what the government basically said was let us have a 
process in place to look at commercial packages and to really 
make those packages meet a certain level, certain standards. We 
will define the requirements and we will test against those 
requirements. And at each step of the way, I think the testing 
itself has become more robust and more complete.
    You have 331 requirements that are now tested by JFMIP and 
they are tested in a controlled environment, one environment, 
1,500 transactions. COTS packages are not tested in HHS' 
environment, or Interior's environment, or NASA's environment. 
They might be configured differently. The systems might work a 
little differently and have different functionality you can 
turn off and on.
    The issue of how precise you have to be in your 
requirements really comes after you purchase the package. As 
you are making your decision on purchasing the package, you can 
be I think more general; what does this do for me, and how does 
it roughly do it. And then the key, as Mr. Weems said 
correctly, is to then adjust your own processes to meet that 
system. There may be some areas where you do not. And there is 
probably no COTS package that is not customized in some manner. 
I am not sure exactly how many of these are going to be applied 
later one, but I think HHS had something like 2,100 
requirements identified at the time of our work and the core 
functionality tested in the COTS package was 331, or about 15 
or 16 percent.
    So, once you have purchased the package, you have to sit 
down and really define exactly how it is going to be 
configured, you are going to have to look at the suitability, 
you are going to have to define how you want that requirement 
to work for you. And that is pretty much accepted practice. The 
JFMIP makes very clear on its Web page that these are things 
that you have to do. You have to test this in your own 
environment. You have to determine how you are going to use the 
functionality and determine the requirements.
    And really looking at the methodology selected by HHS--and 
I will add that our differences with HHS is not so much with 
their methodology, it is in how far they have gotten along in 
the methodology; you know, the metrics or the rigor to it. HHS' 
methodology spoke about reviewing and updating requirements for 
design process workshops, establishing baselines, performing 
fit and gap analysis, developing gap closure alternatives, 
creating final baseline requirements.
    We think those are proper things to do. What we and the 
IV&V contractor found were a number of requirements that were 
not yet specific enough to really even know what you were going 
to get from that requirement, to actually develop a test script 
to test it. So it was really a matter of more needed to be 
done.
    But regardless of whether you have a custom system, which 
we do not recommend people develope, the way to go is to buy 
the COTS packages, or whether you buy a COTS package, you still 
have to work hard on the requirements or you will get to the 
end and the system will not be able to do some things that are 
essential for you. I will give you an example at an agency that 
had really struggled with a COTS package because of the 
liability to readily process the transactions it has.
    GSA, which has a high volume of transactions, found that 
the number of steps the software went through took too long. It 
is called scalability. And the way the software was designed, 
it was not set up to operate efficiently in GSA's environment. 
GSA found that out once it turned on the switch. The agency 
spent a lot of time and effort to work through that. The key is 
to identify problems before you turn on the switch, long 
before, and make those changes early on so you do not face the 
rework later on. Rework is where you spend a lot of money.
    Mr. Platts. Mr. Rhodes, did you want to add anything 
regarding the approach and those standards or the specificity 
of some of the standards for which you have asked for more?
    Mr. Rhodes. I guess I would get back to the discussion on 
risk that you were having earlier. Mr. Weems is revolutionary. 
He is wanting to completely change. He is wanting to enact what 
the Secretary wants, which is to transform Health and Human 
Services. By definition, that is risk. As he stated, largest 
budget, widest and most diverse portfolio, etc.
    I do not think, based on my having looked at the JFMIP 
requirements, I do not view that as a revolution template. That 
is ultimately a partial calibration of an accounting system. 
What Mr. Weems wants to do is revolutionize financial 
management at HHS. That is the correct thing to do.
    But, with that in mind, then if I am going to establish 
cost as an independent variable and I am going to say there is 
$700 million and I am not going to break this budget, and I 
have the constraints of making certain that I pay the 
contractors and pay the bills of HHS on time, I have the 
operational requirement, and I have 110 systems that I have to 
interface, the concern that I have is that when words of 
perfection or heroic or Herculean effort and things like that 
are brought in, then I have to view it as risk.
    In looking at it through risk, day 1, event-driven or 
schedule-driven, there is a great deal of rigor and specificity 
required for success. The fundamental difference between event-
driven or schedule-driven is emphasis. The date is more 
important than the function, or the function is more important 
than the date. That is really the only distinction.
    So, if I take Oracle's view, or PeopleSoft, or SAP, or 
whomever, I take Oracle's view of the universe, well, their 
having a market-centric view to get the JFMIP compliance, but 
they may not know anything at all about HHS. Fine. That means 
the onus is on HHS to do the gap analysis between how do we do 
things now and what does this bring to the table so that we can 
get the delta in place so that we can understand what we have 
to test for. As Mr. Steinhoff said, what is critical, what is 
not critical, what can be deferred, what cannot be deferred.
    The real challenge that I see for them is making certain 
that there is that, as I described for you last time when we 
were talking about the Department of Defense, that crimson 
thread of salvation that runs through this requirement set. It 
leads from concept of operations directly to large scale 
requirements bounced against the system that we are procuring, 
then you start getting down into the detailed requirements, and 
from that, we are building the test case that comes back and 
proves that the system actually does this. If that is in place 
and supports the schedule, then being schedule-driven is not 
bad because your requirement set is strong enough to say I 
believe my schedule. If it requires perfection, then I better 
have perfect requirements.
    I am not trying to be tautological here. But the onus, the 
pressure is on to be absolutely correct and be correct the 
first time out of the can. And when your effort is already 
heroic because you are trying to transform something as large 
as the financial management at Health and Human Services, then 
the requirements had better be strong and they had better be 
precise, because there is going to be some work you have to do 
and if the ultimate changes you make to the system are greater 
than 25 percent, then you have just expended the same amount of 
energy you would if you had started from scratch.
    And those are the things that need to be understood and you 
have to be collecting the metrics that let you know where you 
are. For example, it is not a matter of defect tracking, it is 
a matter of trend analysis--what problems am I encountering in 
this development cycle and am I getting better, is the number 
going down, are they able to bundle together, things like that. 
That is the kind of quantitative measures that provide you the 
trend analysis to know where you are headed. But they all come 
back to the stability, veracity, clarity, lack of ambiguity in 
your requirement set.
    Mr. Platts. The fact that we have the five legacy systems 
and the 110 or so interfaces, and just the breadth of the whole 
transformation is part of that argument of why the greater 
detail up front?
    Mr. Rhodes. Absolutely.
    Mr. Platts. Mr. Weems, I want to reemphasize if I did not 
say it earlier, we want you to have great success by 2007 so we 
can move you over to Defense and then replicate the success 
there. [Laughter.]
    Because a $400 billion budget will be nothing after we 
succeed with $580, right?
    Mr. Weems. That is right.
    Mr. Platts. I had a number of points to followup on. I want 
to have everyone engaged in the dialog here. Mr. Weems, earlier 
you talked about, in taking the approach you have, a schedule-
driven model, that it was BearingPoint's approach, that is 
their best practice. Was that a big part of the decision to go 
this way versus the approach that GAO has recommended, because 
BearingPoint being your contractor and you are trusting them 
once you make that decision that they are who you are in the 
battle with and their belief that this is best practice?
    Mr. Weems. That certainly did bear on it that our partner 
was also engaged in this effort. I would also say the Oracle 
model follows the same type model as best practice for 
implementation. That was important, but I think the thing that 
makes us look to schedule is the benefits of the system, is 
having Federal managers across HHS look at what they have now, 
believe in the possibility of the future and say Kerry, get me 
there now, get me there sooner, I need that. I think that is 
the thing that drives us.
    Capturing those benefits, having Federal managers 
understand where they are financially in an enterprise that is 
over half a trillion dollars a year is absolutely essential, 
and that is where our managers want to be. That is why they are 
saying get me there now.
    Mr. Platts. I would think you would agree that enthusiasm 
is great and that buy-in is so critical. But part of your role 
is to see the whole picture and, you know, we want to get you 
there but maybe--and I will say it in the way as a parent might 
sometimes with kids. We could be going to the park and they 
want me to hurry and get them there because they want to get 
playing. But I have to stay within the speed limit, because 
getting them there as quickly as I can but safely is something 
that is my responsibility. And part of your role is to take all 
that excitement, enthusiasm, buy-in, but make sure it is still 
going to be at the end of the day truly the most responsible 
approach.
    Mr. Weems. Absolutely, Mr. Chairman. I think that was the 
role that I and my leadership team played at the end of August 
and early September is that we stepped in, looked at where 
things were, and said we are not ready. We took an affirmative 
management action.
    And when I took that decision, I immediately conferred with 
my leadership team and then we went right down that pyramid 
that I had up earlier. We talked to the managers, we told them 
where they were, and they were very accepting. So we took the 
decision that was appropriate at the time. If I and my team had 
taken no action, we would right now be hurtling toward full 
implementation starting tomorrow.
    Mr. Platts. You certainly have appropriately emphasized the 
importance of all personnel buying-in and being part of this 
team effort. Can you address the issue of your staffing, that 
is one issue GAO has raised, and your having staffing that you 
need to move the ball forward in an appropriate fashion?
    Mr. Weems. Yes. And that I certainly will admit from the 
beginning has been a particularly nettlesome issue because of 
the predicate from which we began, and that is that we were not 
going to build permanent Federal bureaucracy to implement this. 
That we were going to bring in a few key people, the rest of 
the Federal effort has been comprised of folks who have been 
detailed in from the agencies to fill roles.
    Those details work for 6 months, in some cases a year, and 
then the agency needs them back. Other roles, especially in the 
site implementations, have been filled by people doing double 
duty, where they do their day job and then at 6 in the evening 
they go do their UFMS work. That is sort of a test of some of 
the dedication of the staff. They have worked very hard to do 
that.
    Looking back, we probably should have opened up a couple of 
more permanent positions, if I had to say what would I have 
done differently. For the positions that we have that have been 
opened, we have offered temporary positions--why not come in, 
we will give you 2 years' worth of work, after that we are not 
sure what happens. We have not had particularly good luck in 
filling those positions. So I would say, as GAO notes, our 
overall human resources strategy is something that we need to 
take a step back to look at. We need to make sure that we have 
those positions filled with good, competent people.
    One of the benefits though that we think that this strategy 
of using detailees and folks from the agencies is it cuts down 
substantially on our training costs. If somebody comes and 
works on the project for 6 months, for a year, and then goes 
back to the agency, they not only going to be fully trained, 
they are going to be a super user. When the system comes up 
they are going to say, hey, I worked on this project, I know 
how to do this. We think that is one of the benefits. We 
understand that we have some key vacancies and that certainly 
is something that we are going to have to spend some time 
working on. Hiring a Federal employee is very hard and the 
process is not particularly nimble.
    Mr. Platts. I am glad to hear that acknowledgement--that 
you are actively looking at your human resource issue and how 
to address the challenges you are facing there. When I hear the 
heroic efforts and dedicated effort being put forth as you try 
to move forward to your October deadline, that is great.
    But when I look and think we are basically on a 5-year plan 
and 3 years more to go, the ability to maintain that tempo 
without burning out key people and in the end losing that 
wealth of knowledge is something that we need to be careful of. 
And the fact that you are looking at how to correct that is 
good. And in this case I imagine you would like to have what 
DoD has, which is some hiring flexibility so that you can more 
quickly fill spots that you need as opposed to the bureaucratic 
process that takes a while.
    Mr. Weems. I am also worried, though, about creating a 
permanent bureaucracy. Having three or four people, five 
people, a nucleus around which we can work I think is 
important. But in my 23 years in Government, sir, I have seen a 
lot of project offices turn into things that live well beyond 
their useful life and draw resources from the Government that 
they should not be drawing. And that is one of the things that 
we have tried to be careful to avoid.
    Mr. Platts. Yes. Because once we create a position, it 
stays.
    Mr. Weems. Yes.
    Mr. Platts. Create a program, it stays, even if it out-
lasts its appropriate use.
    We have been joined by Mike Turner, a member of the 
committee. Mike, I appreciate your being with us. Did you have 
anything you wanted to say?
    Mr. Turner. I just appreciate the chairman's continued work 
on this issue.
    Mr. Platts. Thank you. Let me talk about maybe some of the 
cost issues. With that three-quarters of a billion dollar 
estimate out there, I guess the testimony had information about 
the CDC pilot implementation, that NIH pilot, and that was 
about a $100 million cost using the same COTS system and about 
$12 million to migrate that system over to the UFMS.
    Mr. Weems. Yes.
    Mr. Platts. I guess the first question would be, why the 
$12 million cost to migrate it over? And is that $100 million 
part of the $700 million?
    Mr. Weems. Yes.
    Mr. Platts. OK. That is good. I was hoping it was. 
[Laughter.]
    Mr. Weems. So is the $12 million.
    Mr. Platts. And the $12 million is?
    Mr. Weems. Yes, sir.
    Mr. Platts. Why, if it is the same COTS? Kind of educate 
this lay person to understand that.
    Mr. Weems. It is an excellent question. When we started 
back in June 2001, the five systems that we were looking to 
replace were not in the same place. NIH was much farther along. 
Also, NIH's system brought to the table other administrative 
functions beyond financial management.
    Our choice at the time was to use the NIH system as a model 
for the rest of the department. But their work was not scaled 
right for the rest of the department, their effort was not 
scaled right. So that did not seem like a viable alternative. 
Our other alternative was to stop NIH from what they were 
doing, delay the benefits of their implementation, and let the 
rest of the department catch up.
    The third way was to let NIH proceed, let the rest of the 
department catch up, and at some later point merge the two 
implementations. That latter choice is the choice that we made. 
The $12 million cost, that is an estimate right now of what it 
will take. But the NIH implementation proceeded in a way to 
meet NIH's needs, not the needs of the broad HHS. That $12 
million is the cost of bringing those two things together.
    We think we made the right decision. Right now, we closed 
the books today. NIH is going to do financial reporting this 
year on its system. We did not want to delay that. NIH has a 
very efficient and effective e-travel system, way ahead of the 
rest of the department. We did not want to delay that. They are 
going to have other administrative functions like supply chain 
management. We did not want to delay the benefits of those 
things.
    So, the short answer is, NIH developed an implementation 
for NIH. We allowed them to proceed. It meets their business 
needs. We will catch up with them this next year as we bring 
their business needs into UFMS and align their project with 
UFMS.
    Mr. Platts. Mr. Steinhoff, in your assessment of that 
approach and kind of the focus on the cost issue, is that $12 
million estimate of integrating it over something that seems 
viable, or is it going to actually be more?
    Mr. Steinhoff. We did not actually look at that at all. I 
would say though, Mr. Chairman, it gets back to our earlier 
discussion about COTS packages. Mr. Weems said it very well, 
that package was taken and configured for NIH. So, for every 
COTS package, it is very important that you configure it for 
your use and you determine how functionality is going to be 
employed.
    So it is not surprising that HHS would have to make some 
changes to take the NIH package into the broader parameters 
here. Also, as the department better defines its requirements, 
it may find other things are needed to assure that the NIH 
system is in fact meeting the broader needs. For example, the 
COTS package is primarily core accounting, whereas the vision 
is much broader.
    So, we did not look at the estimate. But these are the 
kinds of costs that one would have, and it is not surprising to 
incur a cost to convert the same COTS package to another 
environment.
    Mr. Platts. Mr. Weems, in talking about where you were with 
NIH, you touched on something that I was going to raise about 
the legacy systems. In June 2001, when the Secretary's 
memorandum came forward that HHS was basically going to have 
one--great vision and commendable effort that is going on--
various components of HHS were already moving forward, like 
NIH. What is the status of those others? Have we continued to 
spend money elsewhere? Or were the other ones pretty much put 
on hold and are part of the big picture?
    Mr. Weems. That is right.
    Mr. Platts. OK.
    Mr. Weems. In fact, Mr. Chairman, I remember this meeting 
very, very clearly with the Secretary. In February, just after 
he was confirmed, we sat down and we started working through 
the budget with him. And in CDC, in FDA, in PSC, in NIH, there 
were budget requests to build five different accounting 
systems. He looked at us and essentially said why are we doing 
this. Let us have one.
    And that led to that memorandum. That budget meeting in 
February led to that memorandum. So since then we have done 
maintenance costs on the legacy systems to keep them going. But 
we are not building systems outside of UFMS. We absolutely put 
an end to that.
    Mr. Platts. That is great and glad to hear that. Do you by 
any chance remember, ballpark, what those estimates were if you 
had gone forward with those independent efforts to rewrite 
them?
    Mr. Weems. No, I do not remember the total project costs of 
each incremental budget cost or what we were looking at at that 
moment. I do not recall. But the thing that they were doing 
were simply buying new of what they had. There was not the 
vision in the agencies of being able to go to a shared service 
environment and say we are going to have one place in HHS that 
pays bills, and guess what, guys, we are going to compete to 
see who gets to do that. We are going to have one place that 
maintains the system, we are going to have one place that has a 
Help Desk for all of UFMS. That vision was not present in those 
budget requests. That vision was present in June.
    Mr. Platts. And that is something with your vendors, all 
the private sector, that has to be something that they look 
forward to, I would think, that there is one place that pays 
bill so they know who to go to between the various entities.
    Mr. Weems. I am sure our partners look very much forward to 
that, and certainly those of us who have to track financial 
transactions across the institution do too.
    Mr. Steinhoff. Mr. Chairman, if I may add.
    Mr. Platts. Yes.
    Mr. Steinhoff. I will add that concept is one that we 
support strongly. I think Mr. Weems got to the bottom line of 
the issue in actually making that happen when the Secretary 
said you are not going to spend the money. You probably 
remember when we testified on DOD, we said part of the problem 
is the military services and other commands still have their 
own budgets and still have their own constituencies through 
appropriations and are building away. You have to control the 
money. You have to provide that discipline. And this approach 
is one we strongly support.
    Mr. Platts. And it is a good model for other entities like 
DOD to follow.
    Mr. Steinhoff. Yes.
    Mr. Platts. And for Mr. Weems, for you at the department 
headquarters and ultimately for the Secretary to have that 
knowledge. In our hearing in this room not too long ago with 
NASA, the CFOs are dedicating their efforts, but those 
independent NASA Centers are kind of going their own ways.
    Mr. Weems. If I might make a point there, Mr. Chairman. We 
did not create a single budget for UFMS. The budget for UFMS is 
in every one of our operating divisions. They have a stake in 
the success of this project and they have not gone off with 
that budget and hired somebody else and said this is crazy. 
They have seen the benefits, they have stayed with us, they are 
using dollars appropriated to them, and we bring it all 
together through a Memorandum of Understanding in a central pot 
to expend it. But those dollars are appropriated to them and 
they have stewardship of those dollars.
    Mr. Platts. Good approach. How about on the issue, as you 
move forward with your implementation, the need for manual 
efforts to really address shortcomings in the program that were 
not envisioned? What do you expect with CDC as you go forward? 
What is likely to be the level of manual operations or 
processes that are going to be required to make up for 
something that was not envisioned?
    Mr. Weems. Well, the short answer is, a few. There will be 
some. But that I think follows the rule that you have to give a 
little to get a lot.
    Mr. Platts. Are there some specifics, some examples that 
maybe you envision?
    Mr. Weems. Oh, yes. Most of these actually have to do with 
existing interfaces that are going to be manual transactions 
now that will not be automated in the initial implementation. 
International invoices, how we pay our partners 
internationally, that is a fairly small workload, one that we 
did not think was worth writing an extension for. E-mail 
notification of purchase order exception processing, this 
purchase order did not work so we are going to send you an e-
mail and tell you, we will have to have a manual work-around 
for that. CDC has an interactive voice recognition system that 
they use for some vendor payments, and we will have a manual 
work-around for that in this implementation too.
    So there will be a few. We think that actually these will 
be taken care of in subsequent releases of UFMS. But there will 
be a few, and I am afraid I do not have any example with me, 
where writing an extension to the software just was not worth 
it and so we are going to adopt the business change that using 
Federal Financials brought to us without writing an extension 
to do something manually. These will be small things where it 
just was not worth the dollars to write the extension for the 
software.
    Mr. Platts. Mr. Steinhoff, is that something, I am not sure 
how much detail you looked at, that likely manual work-arounds 
are going to be required? Anything you want to add?
    Mr. Steinhoff. Well, they had not actually rolled out the 
system so you could not really see exactly what would be 
entailed there. It has been a problem with other agencies who 
have found that their system does not provide them what they 
need. So the staff immediately goes off and develop an ad hoc 
system or end up with 1,000 Excel spread sheets and they pull 
down data, or at times people find that the information is 
there but it is not there in a form that is easy for them to 
use it. So the performance of the system and the ability to 
meet the users' needs is lacking. But HHS was not yet in a 
position that we could tell what would happen. And you really 
tell that oftentimes when these things go live. And when the 
activities or entities that are using the systems find that it 
does not provide them the agility and the quality of 
information they need, they themselves will start developing 
those ad hoc systems.
    Mr. Platts. Mr. Weems, it sounds like for those work-
arounds that you purposely did not write an extension, you 
really are going to be looking to learn from that with CDC for 
the subsequent implementation efforts so to try to diminish the 
number of manual work-arounds.
    Mr. Weems. Yes. And in some cases, for instance, the voice 
recognition system that CDC uses, we did not write an extension 
to that. CDC has found that a very useful functionality and it 
may actually be an instance where we want to pick up that 
functionality and look at it for the rest of the department. 
So, for instance, if CDC were to become our bill payer, that 
functionality would be very, very important and that would be 
the kind of thing that we would write an extension for or make 
sure that meshed with the software, because its value at that 
point, if CDC were our bill payer, would be very high.
    Mr. Platts. That is something that will be down the road, 
that decision?
    Mr. Weems. Yes. Yes.
    Mr. Platts. Right. A couple more areas maybe to touch on. 
One is, actually when we were talking about the cost, and I 
realize that you are putting your best estimate out there on 
the whole cost, but one aspect of it is the integration of UFMS 
with your HIGLAS Medicare program. Is that something that is 
still in the works or not included in that estimate of $700 
million?
    Mr. Weems. Integration at the reporting level is included 
at the $700 million. The HIGLAS and the UFMS components will be 
able to produce consolidated financial reports within the $700 
million plan.
    Mr. Platts. As part of the $700 million, it really does 
include how to integrate the two then? I am not sure I am 
understanding you.
    Mr. Weems. I think it depends on what we mean by 
integration. We will be able to produce integrated reports. 
They will not be, for a number of very good and proper reasons, 
integrated systems. Handling the Medicare workload is just so 
different both in volume, complexity, and just by its very 
nature is different from a good deal of the rest of what HHS 
does. So we are not going to integrate that at the systems 
level.
    Mr. Platts. OK. So other than reports, you really do not 
envision that level of integration?
    Mr. Weems. That is right. At least at this stage of the 
technology, we do not envision what a layman would call, and I 
certainly consider myself that, a full integration.
    Mr. Platts. Is that a change from the initial memorandum of 
a single HHS system, the original vision?
    Mr. Weems. I think even when this was written we knew that 
the volume and nature of things at CMS would mean that we would 
still need something separate at some level--at the machine 
level, at the code level, some level--where it just would not 
be fully integrated. The Medicare processing workload is 
immense. It is nearly a billion Medicare bills that are 
processed a year, and that is before Part D of the new 
prescription drug program.
    Mr. Platts. And that is prior to all the baby-boomers 
retiring, right?
    Mr. Weems. That is right. That is before I start submitting 
my bills. [Laughter.]
    Mr. Platts. Mr. Steinhoff, do you have any thoughts about 
keeping those systems separate, that being good, bad, or it is 
hard to say at this point?
    Mr. Steinhoff. We really have not looked at that in 
particular. We noted that in pulling the plan together HHS had 
not stated how it was going to integrate those systems. So I 
think we have gotten the answer today. But that is something 
that we did not cover as part of our review.
    Mr. Platts. OK. As we move toward a wrap-up here, we have 
talked about the interaction between GAO and HHS, the GAO 
report and its recommendations, 34 specific recommendations I 
believe, 9 that were more pressing, and then some others to 
work through. Maybe you would comment on how those sifted out; 
the ones you have embraced and you already have addressed, ones 
you are addressing, or ones that you disagree on. Is there a 
consensus of how you are going to go forward with those 
recommendations and what you are going to do in response to 
them?
    Mr. Weems. I think that in HHS we have adopted a good 
number of them, and I think we have informed our friends at GAO 
of those that we have adopted. For others, such as requirements 
and testing, at the time of the engagement GAO's comments were 
proper. But things have changed since then and I think our 
requirements traceability matrix is much more defined. I think 
the testing that they have been put through reveals that. Also 
at the time of their engagement, we did not have a complete or 
good test plan. I think since that time those things certainly 
have changed.
    So we, on balance, considered their comments very useful. 
We will continue to work on our management of human capital, 
for instance. That is something that was pointed out. 
Obviously, it had been a concern of ours, but it is something 
that we need to do. We will use clear metrics in defining where 
we are going, but we are still going to continue to keep dates 
in front of people and to drive to those dates while 
maintaining the quality and integrity of the program.
    Mr. Platts. Mr. Steinhoff, maybe if you could address any 
specific recommendations you have made where you have had 
dialog and maybe there is not agreement. Is there one or two or 
whatever number that you think are critical that HHS take a 
further look at?
    Mr. Steinhoff. I think the four things that Keith Rhodes 
talked about up front are really the most important areas now. 
Testing is critical, and testing is driven by the requirements. 
I am encouraged that the requirements issues have been resolved 
as Mr. Weems stated today because they were a concern to us 
when we were there. The question will be how effective has that 
been.
    Mr. Platts. And on the testing, it sounds like your testing 
is more defined today than when GAO was reviewing.
    Mr. Weems. Absolutely.
    Mr. Steinhoff. There were a number of recommendations made 
in the most recent IV&V report, both that special report Mr. 
Weems mentioned as well as the report the IV&V contractor 
issued on September 10th which covered their August activity. 
There were really a litany of issues surrounding testing and 
they are a variety of important tests. So I think HHS has a 
roadmap on what to do.
    But it will be very important to assure you have the 
requirements in hand, and you have the test in a manner that is 
disciplined. It is seeking to find deficiencies because you 
want testing to be as rigorous as you possibly can have it. You 
want to be able to truly pass that test. You want to make sure 
the system is useable by the user. I read about a system the 
other day where I guess the users started crying when they 
turned on their computer screens. That is the last thing one 
wants.
    Mr. Platts. Especially after $700 million.
    Mr. Steinhoff. Yes. You are going to have to work really 
hard, as Mr. Rhodes stated, when you get down to the ability to 
actually convert the information you now have to the new system 
as well as integrate with the other 110 systems, in the case of 
CDC the 30, and then the metrics are very key. We continue to 
believe that event-driven is the way to go. Our hope is that 
HHS will have both event-and date-driven. Have a date in front 
of people but assure that things have moved through certain 
events successfully and have the metrics to show that. Because 
we feel without that the risk is very, very high. And none of 
us want to be here in 2007 revisiting this.
    Mr. Platts. We want to be here celebrating.
    Mr. Weems. That is right.
    Mr. Platts. Mr. Rhodes.
    Mr. Rhodes. I would just echo Mr. Steinhoff's points of 
what we consider key to their success. Just taking one example 
of the interfaces, for example, it is not the number, it is 
that as we have seen at HHS, which we have seen at DoD, which 
we have seen at NASA, which we have seen at Bureau of Indian 
Affairs and Department of Interior, the systems to which they 
are trying to interface are not necessarily well-defined in and 
of themselves.
    And so trying to figure out what that interface is both at 
a data level, at a process level, and then at the actual 
physical, electrical level is very complicated. That is 
extremely important because that is going to be their data 
source and that is really the pathway they move to the 
transformation that the Secretary and Mr. Weems are talking 
about. As long as the requirement leads to the test and it is 
being measured, they will be able to get there. But that is the 
challenge for them.
    Mr. Platts. I think your feedback certainly has been well 
reviewed and is being weighed in good faith by the department. 
With Government in general, the joke sometimes is, I am from 
the Government, I am here to help. I imagine the departments 
sometimes view GAO that way, we are from GAO and we are here 
really to help, there is some skepticism. I hope that is not 
the case here because I think there is a wealth of knowledge 
and good faith effort to help HHS to be part of the team of 
this transformation.
    The one thing I would add, and I think, Mr. Weems, you 
appreciate it, is that Mr. Steinhoff and Mr. Rhodes personally 
and GAO in a broad sense has a wealth of knowledge and 
historical perspective with other agencies and departments who 
have gone through similar efforts. The counsel they are sharing 
is not based on just some theory, but based on real practices, 
experiences elsewhere. So I appreciate you and your staff in 
your efforts in giving great weight to their input.
    Thank you all for your great insights today and for helping 
to better educate this lay person on where we stand. I want to 
thank you each individually for your work and please convey to 
your respective staffs back in your offices my sincere thanks 
for theirs.
    I think being a public servant is a very admirable 
profession. Earlier this week I had the pleasure of recognizing 
a postal service employee in my district, in Gettysburg, in 
fact, who, after 30 years of service and 1 million miles of 
safe driving delivering mail, was recognized and welcomed into 
the Million Mile Club. As one who commutes daily, drives about 
30,000 miles a year in my commute from my district I think, I 
have to be here 33 years to catch up. [Laughter.]
    But as I commended him, I commend each of you and your 
staffs for your work. We know you are truly looking out for the 
best interest of your fellow citizens, especially in important 
areas like NIH and CDC, and Medicare, because I want it to be 
there too when I get there.
    I look forward to our committee and staff continuing to 
work with your offices as we move forward in this truly great 
vision that we want to become a reality. And I certainly thank 
committee staff on both sides for their legwork and also 
helping to educate and prepare this lay person. So, thanks for 
your testimony. We will keep the record open for 2 weeks for 
any additional information that needs to be shared.
    This hearing stands adjourned.
    [Whereupon, at 3:45 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
